                Enhancing Internal Controls for the Internal
                Revenue Service’s Excess Collections File
                     Could Improve Case Resolution

                                   January 2005

                       Reference Number: 2005-30-022




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                              DEPARTMENT OF THE TREASURY
                                                    WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                     January 21, 2005


      MEMORANDUM FOR DEPUTY COMMISSIONER FOR SERVICES AND
                     ENFORCEMENT


      FROM:                          Gordon C. Milbourn III
                                     Assistant Inspector General for Audit
                                     (Small Business and Corporate Programs)

      SUBJECT:                       Final Audit Report - Enhancing Internal Controls for the Internal
                                     Revenue Service’s Excess Collections File Could Improve Case
                                     Resolution (Audit # 200430004)


      This report presents the results of our review of the Internal Revenue Service’s (IRS)
      Excess Collections File (XSF).1 The overall objective of this review was to determine
      the financial effect and taxpayer burden on credit balance accounts that are not
      resolved before the IRS transfers large-dollar payments into its XSF.
      In summary, the IRS’ internal controls for resolving cases before transferring
      large-dollar payments to its XSF are not adequate. We concluded that large-dollar
      payments are being transferred without sufficient research or contact with taxpayers.
      When payments are transferred to the XSF without effective case resolution, the IRS
      may be subjecting taxpayers to unwarranted notices. Also, by transferring payments
      without obtaining the associated tax returns, the IRS is not assisting taxpayers in
      meeting their obligations to file their tax returns and pay their taxes due. We concluded
      that if controls were adequate, 25 percent of the dollars in the XSF could have been
      credited to taxpayers’ accounts.




      1
        The XSF contains payments/credits that cannot be applied to a taxpayer’s account. These payments/credits are
      generally caused by one of a limited number of conditions, such as when a taxpayer submits a tax payment but does
      not file a tax return, when a taxpayer files a tax return past the time period to receive a refund, or when the IRS is
      unable determine to which taxpayer account to apply a payment. The IRS sends correspondence to the taxpayer
      regarding these payments/credits before transferring them.
                                                        2

Our analysis of the XSF showed the overall file had grown 65 percent during a 4-year
period. In March 1999, the XSF contained approximately $2.3 billion,2 but it had risen to
approximately $3.8 billion through October 2003.
A review of 88 taxpayer accounts3 with at least 1 tax module4 totaling $1 million or more
in at least 1 tax period5 identified 57 taxpayers with tax modules involving approximately
$931 million that could have been resolved and prevented from being transferred to the
XSF. We identified two major types of cases. In 1 type of case, 29 of the 57 taxpayer
accounts had payments transferred because the taxpayers did not file tax returns for
which they were liable. In the other type of case, 28 of the 57 taxpayer accounts had
payments transferred due to insufficient IRS employee research or IRS employee
contact with the taxpayers, or improper adjustments to the taxpayers’ accounts.
We recommended the Director, Customer Account Services, Wage and Investment
Division, change case resolution procedures to allow for additional research and contact
with taxpayers and to ensure better coordination with each business division before tax
modules with a credit balance are closed. We also recommended the IRS implement
procedures for large-dollar cases to require field contact to obtain delinquent returns or
follow procedures required by the Internal Revenue Code6 for nonfilers. Finally, we
recommended additional managerial oversight to assist in case resolution to prevent
erroneous payment transfers.
Management’s Response: The IRS generally agreed with the intent of the
recommendations. The Director, Customer Account Services, Wage and Investment
Division, will form a task group with representatives from each operating division to
review their current procedures, the cases we reviewed, and our recommendations.
They expect to convene the task group by January 31, 2005, and anticipate the group’s
findings and recommendations by October 2005.
The IRS did not fully agree with the Outcome Measures contained in Appendix IV. They
did not agree with the benefit of $855 million associated with the 29 taxpayers who
failed to file a return. They believe taxpayers who failed to file a proper tax return did
not comply with their legal obligation and, therefore, put themselves at risk. The IRS
response stated that the IRS is not obligated to file returns on the taxpayer’s behalf
under the provisions of Internal Revenue Code (I.R.C.) 6020(b).
IRS management did agree with the benefit associated with the 28 taxpayers with
payments of $76 million that were attributed to insufficient research or contact or an



2
  Millions of Dollars in Internal Revenue Service Excess Collections Accounts Could Be Credited to Taxpayers
(Reference Number 2000-30-088, dated June 2000).
3
  We analyzed 88 taxpayer accounts during our review. However, one taxpayer had two tax modules that appeared
in two different categories.
4
  A record of tax data for a taxpayer covering only one type of tax for one tax period. A taxpayer may have more
than one tax module.
5
  Identifies the time covered by a return or an account (e.g., tax period ending December 2003).
6
  26 U.S.C. § 6020(b) (2004).
                                             3

improper adjustment. Management’s complete response to the draft report is included
as Appendix V.
Office of Audit Comment: We recognize the numerous systemic and procedural
improvements the IRS has made to the management of the XSF during the past
3 years. While these improvements have made it possible for the IRS to perfect many
payments and apply them to the proper taxpayer accounts, we believe the IRS could do
more to assist those taxpayers, especially government entities, in complying with filing
requirements. Our results show that the majority of the outcome measures are
associated with government agencies that did not file a tax return.
There are a variety of reasons why we believe it is appropriate for the IRS to file returns
for taxpayers in these cases.
   •   The I.R.C. states, “If any person fails to make any return required by any Internal
       Revenue Law or regulation . . . the Secretary [of the Treasury] shall make such
       return from his own knowledge and from such information as he can obtain
       through testimony or otherwise.” Although the IRS may not be obligated to file
       returns for taxpayers, they do have the legal authority to do so.
   •   Our results show that 51 percent of the cases we reviewed had taxpayer
       accounts totaling almost $855 million and had at least 1 tax module that required
       a tax return to be filed. These taxpayers submitted substantial payments for tax
       compliance purposes and have a filing requirement; therefore, it would be
       appropriate for the IRS to follow its existing procedures for preparing a tax return
       when attempts to obtain a voluntary tax return fail.
   •   The Large and Mid-Size Business Division performed an independent study
       because of concern that there may be a large amount of unpaid taxes due for
       non-filed tax returns. From its sample of large-dollar tax modules, the IRS was
       able to secure tax returns from most of the taxpayers.
   •   The IRS response of not using the provisions of the I.R.C. appears inconsistent
       with its Non-Filer Strategy, the purpose of which is to identify cases for which the
       IRS can obtain a tax return and assess a tax liability. The objective is to ensure
       taxpayers who are legally required to file do so and to address those individuals
       who are not required to file but may be due refunds or credits.
   •   In our opinion, which is supported by IRS studies, taxpayers do not send
       payments to the IRS unless they anticipate incurring a tax liability.

Copies of this report are also being sent to IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Parker F. Pearson, Director (Small Business Compliance), at (410) 962-9637.
                  Enhancing Internal Controls for the Internal Revenue Service’s
                     Excess Collections File Could Improve Case Resolution




                                                  Table of Contents


Background ............................................................................................... Page 1
Procedures for Transferring Large-Dollar Payments to the Excess
Collections File Are Not Adequate for Case Resolution ............................ Page 3
         Recommendations 1 through 3:.....................................................Page 9
         Recommendation 4: .......................................................................Page 10
         Recommendation 5: .......................................................................Page 11

Appendix I – Detailed Objective, Scope, and Methodology....................... Page 12
Appendix II – Major Contributors to This Report ....................................... Page 13
Appendix III – Report Distribution List ....................................................... Page 14
Appendix IV – Outcome Measures............................................................ Page 15
Appendix V – Management’s Response to the Draft Report ..................... Page 16
             Enhancing Internal Controls for the Internal Revenue Service’s
                Excess Collections File Could Improve Case Resolution

                                 The Internal Revenue Service (IRS) has established a
Background
                                 system of internal controls to ensure taxpayer payments and
                                 the associated documents are properly applied to a
                                 taxpayer’s Master File1 account. When payments and the
                                 associated documents are not received and/or processed as
                                 expected, the Accounts Maintenance (AM) function at each
                                 IRS campus2 is responsible for ensuring general account
                                 resolution. After AM function research has been performed
                                 and Internal Revenue Manual (IRM) procedures have been
                                 followed, if a payment cannot be applied to an account, the
                                 payment is over 1 year old, and the case is still not resolved,
                                 the payment is transferred to the Excess Collections file
                                 (XSF).
                                 Our analysis of the overall XSF showed it had grown
                                 65 percent during the 4-year period from March 1999
                                 (approximately $2.3 billion3) through October 2003
                                 (approximately $3.8 billion4 involving more than 1.9 million
                                 tax modules).5
                                 The XSF generally contains payments that cannot be
                                 applied to the proper tax account. In our opinion, taxpayers
                                 do not send payments to the IRS unless they anticipate
                                 incurring a tax liability. The payments that eventually go to
                                 the XSF are generally caused by one of a limited number of
                                 conditions, such as when a taxpayer submits a tax payment
                                 but does not file a tax return, when a taxpayer files a tax
                                 return past the time period to receive a refund,6 or when the
                                 IRS is unable to determine to which taxpayer’s account to
                                 apply a payment.


                                 1
                                   The IRS database that stores various types of taxpayer account
                                 information. This database includes individual, business, and employee
                                 plans and exempt organizations data.
                                 2
                                   Campuses are the data processing arm of the IRS. The campuses
                                 process paper and electronic submissions, correct errors, and forward
                                 the data to the Computing Centers for analysis and posting to taxpayer
                                 accounts.
                                 3
                                   Millions of Dollars in Internal Revenue Service Excess Collections
                                 Accounts Could Be Credited to Taxpayers (Reference
                                 Number 2000-30-088, dated June 2000).
                                 4
                                   We obtained a data extract as of October 2003.
                                 5
                                   A record of tax data for a taxpayer covering only one type of tax for
                                 one tax period. A taxpayer may have more than one tax module.
                                 6
                                   26 U.S.C. § 6511 (2004).
                                                                                                 Page 1
Enhancing Internal Controls for the Internal Revenue Service’s
   Excess Collections File Could Improve Case Resolution

                    The IRM instructs employees to perform research on each
                    payment before adding it to the XSF, regardless of the dollar
                    amount of the item. Both large- and small-dollar cases are
                    to receive equal attention, but large-dollar cases will be
                    worked first. Figure 1 shows the total dollars for the XSF
                    maintained at each campus.
                                   Figure 1: Total Dollars in the XSF for Each Campus

                                   $1,200                      $1,041
                                   $1,000

                        Millions    $800
                                    $600                            $383                 $399
                                                                                  $380
                                    $400    $260       $288 $343        $263
                                                $224                           $192
                                    $200
                                      $0     Au r


                                           nc n




                                            de n
                                            as o
                                         oo st in



                                             Fr ti




                                                    is
                                          A n ta




                                                     a
                                                  ve




                                         M it y
                                        Ci a ve




                                                   e
                                                   n
                                                 na




                                                  hi
                                                ph
                                                  n




                                     Ka e s




                                     P h gd
                                                C
                                              do
                                               la




                                               lp
                                              in




                                            em
                                            kh




                                             O
                                            At




                                        ns




                                        ila
                                      Br




                                                               Campus

                    Source: Data extract obtained by the Treasury Inspector General for
                    Tax Administration (TIGTA) as of October 2003.

                    This audit was performed at the IRS Philadelphia Campus
                    and included analyses of the 10 campuses’ XSFs during the
                    period October 2003 through August 2004. We interviewed
                    IRS management from the Wage and Investment (W&I)
                    Division in Atlanta, Georgia, and Cincinnati, Ohio; the
                    Small Business/Self-Employed (SB/SE) Division in
                    Cincinnati, Ohio, and New Carrollton, Maryland; and the
                    Large and Mid-Size Business (LMSB) Division in
                    Washington, D.C. We coordinated and validated our
                    analyses of the individual cases with the SB/SE Division
                    Accounts Management unit staff at the Philadelphia
                    Campus.
                    The audit was performed in accordance with Government
                    Auditing Standards. Detailed information on our audit
                    objective, scope, and methodology is presented in
                    Appendix I. Major contributors to the report are listed in
                    Appendix II.

                                                                                         Page 2
               Enhancing Internal Controls for the Internal Revenue Service’s
                  Excess Collections File Could Improve Case Resolution

                                   The IRS’ internal control procedures for transferring
Procedures for Transferring
                                   large-dollar payments to its XSF are not adequate. We
Large-Dollar Payments to the
                                   concluded that large-dollar payments are being transferred
Excess Collections File Are Not
                                   to the XSF without sufficient research or contact with
Adequate for Case Resolution
                                   taxpayers. If controls were adequate, 25 percent of the
                                   dollars in the XSF could have been credited to taxpayers’
                                   accounts.
                                   When payments are transferred to the XSF without effective
                                   case resolution, the IRS may be subjecting taxpayers to
                                   unwarranted notices. Also, by transferring payments
                                   without obtaining the associated tax returns, the IRS is not
                                   assisting taxpayers in meeting their obligations to file their
                                   tax returns and pay their taxes due.
                                   Our analysis of 88 taxpayer accounts7 with at least 1 tax
                                   module totaling $1 million or more in at least 1 tax period8
                                   identified 57 taxpayers with tax modules involving
                                   approximately $931 million that could have been resolved
                                   and prevented from being transferred to the XSF. The
                                   inadequate internal controls allowed filing noncompliance
                                   or improper adjustments to taxpayer accounts.
                                   •   Twenty-nine (51 percent) of 57 taxpayer accounts,
                                       totaling almost $855 million, had at least 1 tax module
                                       that required a tax return to be filed. Because these
                                       taxpayers submitted payments and have a filing
                                       requirement, the IRS should have followed procedures
                                       for preparing a tax return as prescribed by the Internal
                                       Revenue Code (I.R.C.)9 when attempts to obtain a
                                       voluntary tax return failed. In some cases, taxpayers had
                                       filed the same type of return(s) for the tax periods before
                                       and after the subject periods.
                                   •   Twenty-eight (49 percent) of 57 taxpayer accounts had
                                       payments totaling almost $76 million transferred due to
                                       insufficient IRS employee research or contact with the
                                       taxpayers, or an improper adjustment to the account.



                                   7
                                     We analyzed 88 taxpayer accounts during our review. However, one
                                   taxpayer had two tax modules that appeared in two different categories.
                                   8
                                     Identifies the time covered by a return or an account (e.g., tax period
                                   ending December 2003).
                                   9
                                     26 U.S.C. § 6020(b) (2004).
                                                                                                     Page 3
Enhancing Internal Controls for the Internal Revenue Service’s
   Excess Collections File Could Improve Case Resolution

                    Because necessary documentation was not available, we
                    could not determine why payments totaling approximately
                    $45 million were transferred for 16 of the 88 taxpayer
                    accounts.
                    The remaining 16 taxpayer accounts had payments totaling
                    almost $49 million correctly transferred to the XSF. Most
                    of these payments were transferred because of an action
                    taken by the taxpayers, such as filing a tax return past the
                    time period to receive a refund.10
                    The Government Accountability Office (GAO) Standards
                    for Internal Control in the Federal Government11 state
                    internal controls should provide reasonable assurance that
                    the objectives of the agency are being achieved in the
                    following categories:
                         •   Effectiveness and efficiency of operations. When
                             taxpayer accounts are not properly credited,
                             taxpayers may receive unwarranted balance due
                             notices and the IRS’ case workload may increase.
                         •   Reliability of financial reporting. By not properly
                             crediting the appropriate accounts, the IRS cannot
                             determine if it has collected the correct amount of
                             taxes due or if a taxpayer is due a refund of overpaid
                             taxes.
                         •   Compliance with applicable laws and regulations.
                             The IRS must proactively identify and investigate
                             potentially nonfiled returns to maintain public
                             confidence in the voluntary tax system and ensure
                             the tax laws are applied fairly to all taxpayers.
                    We concluded the IRS’ internal control procedures for
                    transferring payments to the XSF are not meeting these
                    standards because approximately $931 million in payments
                    was transferred without sufficient research or contact with
                    taxpayers.




                    10
                       26 U.S.C. § 6511 (2004). The IRS will assess tax, refund a credit, and
                    collect taxes within a specific time period. This limit is known as the
                    statute of limitations.
                    11
                       GAO/AIMD-00-21.3.1, dated November 1999.
                                                                                     Page 4
Enhancing Internal Controls for the Internal Revenue Service’s
   Excess Collections File Could Improve Case Resolution

                    Assisting nonfilers in meeting their tax filing obligations
                    will reduce the number of payments transferred to the
                    XSF
                    Part of the IRS National Non-Filer Strategy is to identify
                    cases for which it can obtain a tax return and assess a tax
                    liability. The IRS’ objective is to ensure taxpayers who are
                    legally required to file do so and to address those
                    individuals who are not required to file but may be due
                    refunds or credits.
                    From our analysis, 29 taxpayers submitted payments,
                    totaling almost $855 million, that were transferred to the
                    XSF because the taxpayers did not file tax returns. We
                    concluded that these cases would have been productive
                    because the taxpayers had already attempted to comply by
                    submitting payments.
                    When a taxpayer has a filing requirement and a tax return
                    has not been received, the IRS can initiate a Taxpayer
                    Delinquency Investigation (TDI).12 Of the 29 taxpayers who
                    did not file a tax return, 14 accounts showed no evidence
                    that a TDI was initiated. These taxpayers submitted
                    payments totaling over $56 million.
                    The remaining 15 taxpayers had TDIs initiated for their
                    accounts. However, seven TDIs were closed because the
                    IRS determined the taxpayers were not required to file the
                    subject returns. These returns included the Employer’s
                    Quarterly Federal Tax Return (Form 941), the Annual
                    Return of Withheld Federal Income Tax (Form 945), and
                    U.S. Corporation Income Tax Return (Form 1120). Our
                    analysis showed these TDIs were incorrectly closed and the
                    taxpayers were, in fact, required to file the tax returns. Two
                    of the 7 taxpayers were government entities that had
                    submitted payments totaling approximately $744 million.
                    The IRM states, “Federal Agencies are not exempt from the
                    employment tax filing, paying, and reporting requirements.
                    [The] Congress did not provide any exceptions for Federal
                    Agencies.” The IRM further states it is important for all
                    government agencies to set a good example because private

                    12
                      The goal of these investigations is to bring the taxpayer into full
                    compliance, including securing the full payment of the tax liability with
                    the delinquent return.
                                                                                     Page 5
Enhancing Internal Controls for the Internal Revenue Service’s
   Excess Collections File Could Improve Case Resolution

                    employers are expected to meet all requirements for filing
                    and paying their taxes timely. One of the goals of the IRS
                    Strategic Business Plan is to discourage and deter abuse
                    within tax-exempt and government entities. From our
                    analysis, we found another government entity had not filed
                    tax returns for 7 years and had credits remaining in its tax
                    modules of approximately $38 million.13
                    Further, our opinion that taxpayers do not send payments to
                    the IRS unless they anticipate incurring a tax liability is
                    supported by an independent study performed by the LMSB
                    Division. The IRS initiated this analysis because of concern
                    that there may be a large amount of unpaid taxes due for
                    nonfiled tax returns. From its sample of large-dollar tax
                    modules, the IRS was able to secure tax returns from most
                    of the taxpayers. Another study performed by the LMSB
                    Division on income tax nonfilers concluded, “The presence
                    of a credit balance is indicative that the taxpayer expects to
                    file a return which shows tax due.”
                    The I.R.C.14 states, “If any person fails to make any return
                    required by any Internal Revenue Law or regulation . . . the
                    Secretary [of the Treasury] shall make such return from his
                    own knowledge and from such information as he can obtain
                    through testimony or otherwise.” From this legal authority,
                    the IRS developed the Delinquent Return and Substitute for
                    Return procedures to address taxpayers who do not file
                    required tax returns. The purpose of the procedures is to
                    assess the correct tax liability by either securing a valid
                    voluntary tax return from the taxpayer (Delinquent Return)
                    or, if securing a return is not possible, computing tax,
                    interest, and penalties based on information submitted by
                    payers or based on other internally available information
                    (Substitute for Return). There is no indication the IRS
                    followed these procedures for taxpayers with these
                    large-dollar credit15 balances before transferring the
                    payments to the XSF.
                    Although these taxpayers have made an attempt to comply
                    with their tax obligations by submitting these payments,


                    13
                       We did not secure any evidence that a TDI had been issued.
                    14
                       26 U.S.C. § 6020(b) (2004).
                    15
                       An amount paid or transferred as payment to an account.
                                                                                    Page 6
Enhancing Internal Controls for the Internal Revenue Service’s
   Excess Collections File Could Improve Case Resolution

                    without the proper documentation (i.e., tax returns) the IRS
                    is unable to determine if the taxpayers have fully paid their
                    tax liabilities.
                    Increasing managerial oversight could assist in case
                    resolution and prevent payments from being transferred
                    to the XSF
                    Our analysis of the XSF showed the account grew
                    65 percent during a 4-year period. We recognize there are
                    situations in which payments are required to be transferred
                    to the XSF, including tax refunds from taxpayers who have
                    filed their tax returns past the time to receive a refund,
                    photocopy fees, and conscience money.16 However,
                    increasing managerial oversight of tax modules with
                    large-dollar payments could prevent costly errors and
                    protect taxpayer rights. Our analysis showed 29 taxpayer
                    accounts required a tax return to be secured and
                    28 taxpayer accounts had incorrect or insufficient actions
                    taken.
                    We also identified instances in which IRS employees
                    transferred payments to the XSF without performing
                    sufficient research. For example, there were cases in which
                    taxpayers fabricated the amount of withholding to claim
                    refunds. The IRS processed these claims; however, since
                    the returns were filed past the statute of limitations, the
                    fabricated refund amounts were transferred to the XSF. In
                    these cases, the taxpayers actually owed a balance due, but
                    will not receive a notice for the proper amount of tax due,
                    and the XSF is artificially overstated.
                    Contributing to this situation are several related sections of
                    the IRM that may be preventing employees from expending
                    additional time to research or contact taxpayers before
                    deciding to transfer payments to the XSF. For example, the
                    procedures for cases sent to the Statute of Limitations
                    function state that, due to the adverse impact on the




                    16
                      This is a remittance received to ease the taxpayer’s conscience and is
                    usually accompanied by an anonymous note so indicating.
                                                                                     Page 7
Enhancing Internal Controls for the Internal Revenue Service’s
   Excess Collections File Could Improve Case Resolution

                    Accounts Receivable Dollar Inventory,17 all large dollar
                    debit18 and credit19 tax modules involving a balance of
                    $25,000 and over must be expeditiously resolved. When
                    these balances are not resolved expeditiously, the time
                    period in which the IRS may refund a credit to a taxpayer or
                    assess a tax liability may be limited.
                    However, by transferring these payments expeditiously,
                    employees may not be taking sufficient action to ensure
                    the proper resolution. Figure 2 shows a listing of dollars in
                    the XSF for tax modules with $25,000 or more as of
                    October 2003.
                         Figure 2: Dollars by Tax Module in the XSF as of October 2003

                     Tax Module Ranges              Modules                Dollars20
                     $25,000 - $49,999                5,109         $      173,517,277
                     $50,000 - $99,999                2,080         $      140,909,261
                     $100,000 - $249,999              1,006         $      148,385,202
                     $250,000 - $499,999                302         $      104,902,076

                     $500,000 - $999,999               118          $        79,353,674
                     $1,000,000 and over                 9621       $    1,019,593,411
                     Total                         8,711        $ 1,666,660,901
                    Source: Data extract obtained by the TIGTA as of October 2003.

                    Also, XSF procedures advise employees to research
                    payments and give equal attention to both large and small
                    cases but state that large-dollar cases will be worked first.
                    However, the procedures also state that research does not




                    17
                       Consists of delinquent taxes owed by taxpayers. If a taxpayer does
                    not pay an outstanding tax liability in full within 10 days of notification,
                    the account is placed into the accounts receivable inventory. Delinquent
                    taxes remain in the inventory until they are either paid or abated, or until
                    the collection statute of limitations expires (10 years).
                    18
                       A condition in which the balance due on a tax account exceeds the
                    total amount of credits.
                    19
                       A condition in which the amount of credits on a tax account exceeds
                    the balance due.
                    20
                       All figures are rounded.
                    21
                       These 96 tax modules were included in the review of the 88 taxpayer
                    accounts.
                                                                                       Page 8
Enhancing Internal Controls for the Internal Revenue Service’s
   Excess Collections File Could Improve Case Resolution

                    have to be conducted for statute-expired cases.22 These
                    procedures are advising employees not to conduct research
                    that could aid in case resolution.
                    We recognize that the IRS improved internal controls after a
                    previous TIGTA audit involving the XSF. However, the
                    type of cases identified in this review can still occur. By
                    expending additional time on research or contact with
                    taxpayers and increasing the managerial review of
                    large-dollar cases, the IRS can leverage its resources and
                    minimize the number of large-dollar payments transferred to
                    the XSF.

                    Recommendations

                    To assist in case resolution and prevent payments from
                    being prematurely transferred to the XSF, the Director,
                    Customer Account Services, W&I Division, should:
                    1. Change IRM procedures to allow for additional
                       employee research or taxpayer contact to obtain needed
                       information for large-dollar cases.
                    Management’s Response: A task force will be formed and
                    will review current guidance in each operating division’s
                    IRM and develop appropriate procedures to ensure that
                    large dollar cases receive proper attention.
                    2. Increase managerial review for all tax modules, at an
                       amount established by each business operating division,
                       before payments are transferred to the XSF or remain
                       unresolved.
                    Management’s Response: The task force will review
                    current guidance for each operating division and determine
                    if changes are needed to established practices.
                    3. Require IRS employee field contact, when needed, for
                       tax modules over an amount established by each
                       business operating division when a tax return is needed.



                    22
                       These cases would involve payments more than 2 years from the
                    payment date or 3 years from the return filed date, whichever date is
                    later.
                                                                                     Page 9
Enhancing Internal Controls for the Internal Revenue Service’s
   Excess Collections File Could Improve Case Resolution

                    Management’s Response: The task force will review
                    current guidance for each operating division and determine
                    if changes are needed to established practices.
                    4. Ensure the I.R.C.23 procedures are used during case
                       resolution when the taxpayer is unable or unwilling to
                       submit a tax return for large-dollar cases.
                    Management’s Response: IRS management stated the IRS
                    is not obligated to file returns under the provisions of I.R.C.
                    6020(b) on the taxpayer’s behalf. Therefore, the IRS does
                    not fully agree with the benefit of $855 million associated
                    with the 29 taxpayers who failed to file a return. IRS
                    management stated that taxpayers who failed to file a proper
                    tax return did not comply with their legal obligation and,
                    therefore, put themselves at risk. However, the task force
                    will review current practices and guidance for use of
                    I.R.C. 6020(b) procedures in resolving situations where
                    large-dollar credits are present, but the returns are not filed.
                    Office of Audit Comment: We recognize the numerous
                    systemic and procedural improvements the IRS has made to
                    the management of the XSF during the past 3 years. While
                    these improvements have made it possible for the IRS to
                    perfect many payments and apply them to the proper
                    taxpayer accounts, we believe the IRS could do more to
                    assist those taxpayers, especially government entities, in
                    complying with filing requirements. Our results show the
                    majority of the outcome measures are associated with
                    government agencies that did not file a tax return.
                    There are a variety of reasons why we believe it is
                    appropriate for the IRS to file returns for taxpayers in these
                    cases.
                           •   The I.R.C. states, “If any person fails to make any
                               return required by any Internal Revenue Law or
                               regulation . . . the Secretary [of the Treasury] shall
                               make such return from his own knowledge and from
                               such information as he can obtain through testimony
                               or otherwise.” Although the IRS may not be
                               obligated to file returns for taxpayers, they do have
                               the legal authority to do so.

                    23
                         26 U.S.C. § 6020(b) (2004).
                                                                             Page 10
Enhancing Internal Controls for the Internal Revenue Service’s
   Excess Collections File Could Improve Case Resolution

                        •   Our results show that 51 percent of the cases we
                            reviewed had taxpayer accounts totaling almost
                            $855 million and had at least 1 tax module that
                            required a tax return to be filed. These taxpayers
                            submitted substantial payments for tax compliance
                            purposes and have a filing requirement; therefore, it
                            would be appropriate for the IRS to follow its
                            existing procedures for preparing a tax return when
                            attempts to obtain a voluntary tax return fail.
                        •   The LMSB Division performed an independent
                            study because of concern that there may be a large
                            amount of unpaid taxes due for non-filed tax returns.
                            From its sample of large-dollar tax modules, the IRS
                            was able to secure tax returns from most of the
                            taxpayers.
                        •   The IRS response of not using the provisions of the
                            I.R.C. appears inconsistent with its Non-Filer
                            Strategy, the purpose of which is to identify cases
                            for which the IRS can obtain a tax return and assess
                            a tax liability. The objective is to ensure taxpayers
                            who are legally required to file do so and to address
                            those individuals who are not required to file but
                            may be due refunds or credits.
                        •   In our opinion, which is supported by IRS studies,
                            taxpayers do not send payments to the IRS unless
                            they anticipate incurring a tax liability.

                    5. Ensure better coordination with each business operating
                       division before tax modules with a credit balance are
                       closed. This coordination would include advising the
                       respective business operating division of the large-dollar
                       payments being transferred to the XSF.
                    Management’s Response: The task group will review the
                    need for and feasibility of this recommendation in light of
                    their overall findings and any proposed changes to
                    procedures.




                                                                         Page 11
                  Enhancing Internal Controls for the Internal Revenue Service’s
                     Excess Collections File Could Improve Case Resolution

                                                                                                       Appendix I


                           Detailed Objective, Scope, and Methodology

The overall objective of the review was to determine the financial effect and taxpayer burden on
credit balance accounts that are not resolved before the Internal Revenue Service (IRS) transfers
large-dollar payments into its Excess Collections file (XSF).1
To accomplish our objective, we:

    I. Obtained a computer extract of the IRS’ XSF as of October 2003 from all 10 campuses.2
    II. Identified all 883 taxpayers that had 96 tax modules4 in the XSF with payments totaling
        $1 million or more in at least 1 tax period.5
III. Researched the actions taken for these payments using the Integrated Data Retrieval
     System6 and requested original documentation (i.e., tax returns). We determined if
     sufficient actions were taken before the payments were transferred into the XSF.
IV. Coordinated with IRS analysts from the Small Business/Self-Employed Division Accounts
    Management unit staff at the Philadelphia Campus to validate our analyses.




1
  The XSF contains payments/credits that cannot be applied to a taxpayer’s account. These payments/credits are
generally caused by one of a limited number of conditions, such as when a taxpayer submits a tax payment but does
not file a tax return, when a taxpayer files a tax return past the time period to receive a refund, or when the IRS is
unable determine to which taxpayer account to apply a payment. The IRS sends correspondence to the taxpayer
regarding these payments/credits before transferring them.
2
  The campuses are the data processing arm of the IRS. The campuses process paper and electronic submissions,
correct errors, and forward data to the Computing Centers for analysis and posting to taxpayer accounts.
3
  We analyzed 88 taxpayer accounts during our review. However, one taxpayer had two tax modules that appeared
in two different categories.
4
  A record of tax data for a taxpayer covering only one type of tax for one tax period. A taxpayer may have more
than one tax module.
5
  Identifies the time covered by a return or an account (e.g., tax period ending December 2003).
6
  IRS computer system capable of retrieving or updating stored information; it works in conjunction with a
taxpayer’s account records.
                                                                                                             Page 12
              Enhancing Internal Controls for the Internal Revenue Service’s
                 Excess Collections File Could Improve Case Resolution

                                                                               Appendix II


                          Major Contributors to This Report

Parker F. Pearson, Director
Philip Shropshire, Director
Edmond Watt, Audit Manager
Timothy Greiner, Acting Audit Manager
Carole Connolly, Lead Auditor
Donna Saranchak, Senior Auditor
Denise Gladson, Auditor
Dave Clous, Information Technology Specialist




                                                                                   Page 13
             Enhancing Internal Controls for the Internal Revenue Service’s
                Excess Collections File Could Improve Case Resolution

                                                                              Appendix III


                                Report Distribution List

Commissioner C
Office of the Commissioner – Attn.: Chief of Staff C
Commissioner, Large and Mid-Size Business Division SE:LM
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Tax Exempt and Government Entities Division SE:T
Commissioner, Wage and Investment Division SE:W
Director, Campus Reporting Compliance, Small Business/Self-Employed Division
SE:S:CSCO:CRC
Director, Communications and Liaison, Small Business/Self-Employed Division SE:S:C&L
Director, Compliance, Wage and Investment Division SE:W:CP
Director, Compliance Services Campus Operations, Small Business/Self-Employed Division
SE:S:CSCO
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Director, Filing and Payment Compliance, Wage and Investment Division SE:W:CP:FP:C
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
         Commissioner, Large and Mid-Size Business Division SE:LM
         Commissioner, Small Business/Self-Employed Division SE:S
         Commissioner, Tax Exempt and Government Entities Division SE:T
         Senior Operations Advisor, Wage and Investment Division SE:W:S




                                                                                   Page 14
                  Enhancing Internal Controls for the Internal Revenue Service’s
                     Excess Collections File Could Improve Case Resolution

                                                                                                     Appendix IV


                                             Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. This benefit will be incorporated into our
Semiannual Report to the Congress.
Type and Value of Outcome Measure:
•   Taxpayer Rights and Entitlements – Actual; 57 taxpayers affected; approximately
    $931 million in payments transferred to the Excess Collections file (XSF)1 (see page 3).
Methodology Used to Measure the Reported Benefit:
As of October 2003, the XSF contained approximately $3.8 billion. Our analysis of the XSF
showed 882 taxpayers had tax modules3 (totaling over $1 billion) with payments totaling
$1 million or more in at least 1 tax period.4 Of the 88 taxpayers, 57 had tax modules with
payments totaling approximately $931 million that could have been prevented from being
transferred to the XSF. Ineffective internal controls allowed for improper adjustments to
taxpayers’ accounts.
•   Twenty-nine (51 percent) of 57 taxpayer accounts, totaling almost $855 million, had at least
    1 tax module that required a tax return to be filed. Because these taxpayers submitted
    payments and have a filing requirement, the IRS should have followed procedures for
    preparing a tax return as prescribed by the Internal Revenue Code5 when attempts to obtain a
    voluntary tax return failed.
•   Twenty-eight (49 percent) of 57 taxpayer accounts had payments totaling almost $76 million
    transferred due to insufficient research or contact with the taxpayers, or an improper
    adjustment to the accounts.




1
  The XSF contains payments/credits that cannot be applied to a taxpayer’s account. These payments/credits are
generally caused by one of a limited number of conditions, such as when a taxpayer submits a tax payment but does
not file a tax return, when a taxpayer files a tax return past the time period to receive a refund, or when the IRS is
unable determine to which taxpayer account to apply a payment. The IRS sends correspondence to the taxpayer
regarding these payments/credits before transferring them.
2
  We analyzed 88 taxpayer accounts during our review. However, one taxpayer had two tax modules that appeared
in two different categories.
3
  A record of tax data for a taxpayer covering only one type of tax for one tax period. A taxpayer may have more
than one tax module.
4
  Identifies the time covered by a return or an account (e.g., tax period ending December 2003).
5
  26 U.S.C. § 6020(b) (2004).
                                                                                                             Page 15
Enhancing Internal Controls for the Internal Revenue Service’s
   Excess Collections File Could Improve Case Resolution

                                                                 Appendix V


      Management’s Response to the Draft Report




                                                                     Page 16
Enhancing Internal Controls for the Internal Revenue Service’s
   Excess Collections File Could Improve Case Resolution




                                                                 Page 17
Enhancing Internal Controls for the Internal Revenue Service’s
   Excess Collections File Could Improve Case Resolution




                                                                 Page 18
Enhancing Internal Controls for the Internal Revenue Service’s
   Excess Collections File Could Improve Case Resolution




                                                                 Page 19
Enhancing Internal Controls for the Internal Revenue Service’s
   Excess Collections File Could Improve Case Resolution




                                                                 Page 20
Enhancing Internal Controls for the Internal Revenue Service’s
   Excess Collections File Could Improve Case Resolution




                                                                 Page 21
Enhancing Internal Controls for the Internal Revenue Service’s
   Excess Collections File Could Improve Case Resolution




                                                                 Page 22
